USDOJ: Importer of Defective Zylon Fiber Used in Bullet Proof Vests Reaches Settlement with United States
Skip to main content | Skip to footer site map
Home
About Us
The Attorney General
Budget & Performance
Strategic Plans
Agencies
Business & Grants
Business Opportunities
Small & Disadvantaged Business
Grants
Resources
Forms
Publications
Case Highlights
Legislative Histories
Information for Victims in Large Cases
Briefing Room
Justice News
The Justice Blog
Public Schedule
Videos
Photo Gallery
Careers
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
Contacts
Home   »  Briefing Room    »  Justice News
Printer Friendly
Department of Justice
Office of Public AffairsFOR IMMEDIATE RELEASETuesday, January 25, 2011
Importer of Defective Zylon Fiber Used in Bullet Proof Vests Reaches Settlement with United States
WASHINGTON - N.I. Teijin Shoji Co. Ltd., aka N.I. Teisho of Japan, and an American subsidiary, N.I. Teijin Shoji (USA) Inc., have agreed to pay the United States $1.5 million to resolve potential claims under the False Claims Act in connection with the companies’ importation and sale of defective Zylon fiber which was used as the key ballistic material in bulletproof vests, the Justice Department announced today.
The Teijin companies imported the fiber on behalf of the Zylon manufacturer, Toyobo Co. Ltd. of Japan. The United States alleged that the Teijin companies were aware that the fiber degraded quickly over time and that this degradation rendered bulletproof vests containing woven Zylon unfit for use. The government further alleged that, despite this knowledge, the Teijin companies did not inform the United States of any degradation concerns or stop selling Zylon fiber for use in ballistic applications. Rather, Teijin personnel actively participated in the marketing of the Zylon fiber and downplayed the extent of the degradation problem. Furthermore, for a period of time in 2002, Teijin purchased Zylon fabric back from the Canadian weaver to whom it had sold the fiber for weaving, and sold it directly to American body armor manufacturers, after the weaver itself refused to sell the Zylon fabric due to its fears of potential liability.
"Those who knowingly provide defective material for bulletproof vests not only cheat the taxpayers, they put the lives of law enforcement officers at risk," said Tony West, Assistant Attorney General for the Justice Department’s Civil Division. "We will pursue any company that is aware of problems with Zylon fiber, yet continues to market and sell it anyway."
This settlement is part of a larger investigation of the body armor industry’s use of Zylon in body armor. The United States previously has settled with eight other participants in the Zylon body armor industry for more than $59 million. Additionally, the federal government has lawsuits pending against Toyobo Co. and several of the vest manufacturers. As part of today’s agreement, Teijin has pledged its cooperation in the government’s on-going investigation.
Assistant Attorney General West acknowledged the contributions of the many government agencies assisting the government’s ongoing investigation of those who participated in the manufacture and sale of Zylon vests, including the Justice Department’s Civil Division; the U.S. Attorney’s Office for the District of Columbia; the General Services Administration, Office of the Inspector General; the U.S. Army Criminal Investigative Command; the Department of Commerce, Office of Inspector General; the Department of the Treasury’s Inspector General for Tax Administration; the Defense Criminal Investigative Service; the Air Force Office of Special Investigations; the Department of Energy, Office of the Inspector General; the Defense Contracting Audit Agency; and the FBI.
11-109Civil Division
Department of Justice Accomplishments
Open Government at the Department of Justice
Report a Crime
Get a Job
Locate a Prison, Inmate, or Sex Offender
Apply for a Grant
Submit a Complaint
Report Waste, Fraud, Abuse or Misconduct to the Inspector General
Find Sales of Seized Property
Find Help and Information for Crime Victims
Register, Apply for Permits, or Request Records
Identify Our Most Wanted Fugitives
Find a Form
Report and Identify Missing Persons
Contact Us
Site Map
A to Z Index
Archive
Accessibility
FOIA
No FEAR Act
Information Quality
Privacy Policy
Legal Policies & Disclaimers
For Employees
Office of the Inspector General
Government Resources
USA.gov
BusinessUSA
ABOUT
The Attorney General
Budget & Performance
Strategic Plans
AGENCIES
BUSINESS & GRANTS
Business Opportunities
Small & Disadvantaged Business
Grants
RESOURCES
Forms
Publications
Case Highlights
Legislative Histories
Information for Victims in Large Cases
NEWS
Justice News
The Justice Blog
Videos
Photo Gallery
CAREERS
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
CONTACT